HHS/OIG-Audit--"Medicaid Drug Rebates--Sales to Repackagers Excluded From Best Price Determinations, (A-06-00-00056)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Drug Rebates--Sales to Repackagers Excluded From Best Price Determinations," (A-06-00-00056)
March 27, 2001
Complete
Text of Report is available in PDF format (764 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a significant problem with certain manufacturers'
practices affecting the determination of Medicaid drug rebates. A manufacturer's
drug sales to health maintenance organizations (HMOs) are specifically required
by statute to be included in the drug manufacturer's best price determination.
Our review showed, however, that 7 of 53 drug manufacturers excluded sales to 8
repackagers, 3 of which were HMO repackagers, for the top 200 Medicaid reimbursed
drugs in Fiscal Year 1999. As a result, the Medicaid program lost drug rebates
totaling $80.7 million. We recommended that the Health Care Financing Administration
(HCFA) require the drug manufacturers who excluded sales to HMOs from their best
price determinations to repay the lost rebates. We also recommended that HCFA evaluate
its policy guidance relating to the exclusion of sales to other (nonHMO) repackagers
from best price determinations, especially where those repackagers used the drugs
for their own use and did not resell them. The HCFA concurred with our recommendations.